<html>
<title> - CALIFORNIA'S SACRAMENTO-SAN JOAQUIN DELTA: PLANNING AND PREPARING FOR HAZARDS AND DISASTERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                  CALIFORNIA'S SACRAMENTO-SAN JOAQUIN
                   DELTA: PLANNING AND PREPARING FOR
                         HAZARDS AND DISASTERS

=======================================================================

                                (112-99)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                 AUGUST 16, 2012 (Stockton, California)

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-571 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
CHIP CRAVAACK, Minnesota             DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
LARRY BUCSHON, Indiana               JASON ALTMIRE, Pennsylvania
BILLY LONG, Missouri                 TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      HEATH SHULER, North Carolina
PATRICK MEEHAN, Pennsylvania         STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         ALBIO SIRES, New Jersey
STEVE SOUTHERLAND II, Florida        DONNA F. EDWARDS, Maryland
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
VACANCY
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                   JEFF DENHAM, California, Chairman
TIMOTHY V. JOHNSON, Illinois         ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD,               Columbia
    Arkansas,                        HEATH SHULER, North Carolina
  Vice Chair                         MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      DONNA F. EDWARDS, Maryland
PATRICK MEEHAN, Pennsylvania         BOB FILNER, California
RICHARD L. HANNA, New York           NICK J. RAHALL II, West Virginia
CHARLES J. ``CHUCK'' FLEISCHMANN,      (Ex Officio)
    Tennessee
JOHN L. MICA, Florida (Ex Officio)
















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Hon. John Garamendi, a Representative in Congress from the State 
  of California..................................................     5

                                Panel 2

Robert J. Fenton, Jr., Assistant Administrator for Response, 
  Office of Response and Recovery, Federal Emergency Management 
  Agency.........................................................     7
Brendan A. Murphy, Assistant Secretary, California Emergency 
  Management Agency..............................................     7
Ronald E. Baldwin, Former Director of Emergency Operations, San 
  Joaquin County.................................................     7
Timothy Alan Simon, Commissioner, California Public Utilities 
  Commission.....................................................     7
Alexander R. Coate, General Manager, East Bay Municipal Utility 
  District.......................................................     7

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. John Garamendi..............................................    36
Robert J. Fenton, Jr.............................................    39
Brendan A. Murphy................................................    44
Ronald E. Baldwin................................................    48
Timothy Alan Simon...............................................    50
Alexander R. Coate...............................................    55

                       SUBMISSION FOR THE RECORD

Timothy Alan Simon, Commissioner, California Public Utilities 
  Commission, response to request from Hon. Jeff Denham, a 
  Representative in Congress from the State of California and 
  Chairman of the Subcommittee on Economic Development, Public 
  Buildings, and Emergency Management, for information on utility 
  emergency preparedness and response plans for the Delta and the 
  Delta levees...................................................    24

                         ADDITION TO THE RECORD

Pacific Gas and Electric Company, written statement..............    64



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
                  CALIFORNIA'S SACRAMENTO-SAN JOAQUIN
                   DELTA: PLANNING AND PREPARING FOR
                         HAZARDS AND DISASTERS

                              ----------                              


                       THURSDAY, AUGUST 16, 2012

                  House of Representatives,
       Subcommittee on Economic Development, Public
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:36 a.m., in 
the San Joaquin Council of Governments Building, 555 East Weber 
Avenue, Stockton, California, Hon. Jeff Denham (Chairman of the 
subcommittee) presiding.
    Present: Representatives Denham and Shuster.
    Also Present: Representative McNerney.
    Mr. Denham. Good morning. The subcommittee will come to 
order.
    I want to first start by welcoming Chairman Shuster of the 
Subcommittee on Railroads, Pipelines and Hazardous Materials, 
and former chairman of this subcommittee, here today. One of 
the things that we are talking about today are the pipelines 
that run through the Delta, so I am glad you were able to join 
us.
    I ask at this time unanimous consent that Representative 
Shuster be permitted to sit with the subcommittee at today's 
hearing to offer testimony and ask questions. Without 
objection, so ordered.
    I also ask unanimous consent that Representative McNerney 
be permitted to sit with the committee at today's hearing to 
offer testimony and ask questions. Without objection, so 
ordered.
    This is Mr. McNerney's district, and we appreciate you 
playing host to us today.
    As a representative from California, my constituents and I 
know very well how important it is to plan and prepare for 
disasters. From earthquakes to floods to wildfires, good 
planning and preparedness saves lives and mitigates against 
damages.
    That is why, as chairman of the subcommittee with 
jurisdiction over FEMA and emergency management, I have held a 
number of hearings focusing on improving our emergency 
management capability. This Congress, I authored H.R. 2903, the 
FEMA Reauthorization Act, which was voted out of the committee 
in March. That bill would not only reauthorize FEMA and key 
emergency management programs such as the Urban Search and 
Rescue System, but would help streamline and reduce costs to 
disaster assistance programs, ensuring communities can recover 
more quickly following a disaster.
    Today, we are here in Stockton, California, to specifically 
examine planning and preparedness in Sacramento and the San 
Joaquin Delta region. It is important to ensure that all levels 
of Government are working together to plan for and prepare for 
any hazards and disasters.
    The California Delta has more than 1,000 miles of 
waterways, more than 1,100 miles of levees, barrier water 
supply lines, petroleum pipelines, and two inland seaports. The 
Delta is the main hub for delivering fresh water to millions of 
California residents in the San Francisco Bay area and southern 
coastal communities of the State, along with millions of acres 
of farmland of the San Joaquin Valley.
    To plan for a disaster in this region, in 2008 the 
California Legislature passed legislation that created the 
Sacramento-San Joaquin Delta Multi-Hazard Coordination Task 
Force to make recommendations on improving, planning, and 
preparedness. The task force, led by CalEMA, issued its report 
January of this year. The report included recommendations 
related to establishing an interagency unified command system 
framework, developing an emergency preparedness and response 
strategy, and ensuring all hazards training and exercises. Many 
of these recommendations require close coordination with FEMA, 
the State and local communities, as well as those in charge of 
our infrastructure and utilities.
    That is why I am pleased to have such a diverse panel of 
witnesses with us here today. I look forward to hearing from 
the witnesses on how they are able to plan, prepare for hazards 
and disasters here in the Delta.
    Again, I want to thank our witnesses for being here today.
    At this time, I would like to recognize Mr. McNerney for an 
opening statement.
    Mr. McNerney. Thank you, Mr. Chairman.
    Today we will discuss a critical issue to the Delta 
communities, the ability to best prevent and respond to natural 
disasters, particularly floods. As we know, the Delta is a 
unique and invaluable resource for the region's farmers, 
families and small businesses. Furthermore, much of California 
relies on the Delta sustainability.
    The Sacramento-San Joaquin Delta Multi-Hazard Coordination 
Task Force's report on emergency preparedness highlighted the 
ongoing need to prepare for natural disasters. Achieving this 
goal requires coordination between local, State and Federal 
agencies, as well as first responders and the community at 
large. I want to thank the task force for its work on this 
important issue.
    As the task force's report indicated, there are many 
components that lead to successful emergency response plans. 
Today we are focusing on preparation and prevention for the 
Delta. Maintaining levee safety, sustainability and 
improvements is at the core of preventing floods. Multiple 
reports and studies have reinforced not only the cost-benefit 
of levee improvements, a top priority for nearly every Delta 
county, but also that this investment enhances the long-term 
stability of water quality and water delivery for people 
throughout the State.
    Additionally, agriculture is a multibillion-dollar industry 
that depends on the stability of the Delta. A lack of long-term 
Delta levee management will result in higher flood insurance 
costs for the people we represent. Disaster preparedness and 
mitigation not only protects the livelihood of our region and 
its residents but also benefits the State's economy.
    I recognize that levee improvements are only one portion of 
the issue we are discussing today. The task force also reports 
on one obstacle that we all know very well, and that is the 
funding. All levels of Government are battling deficits and a 
lack of resources. Whether it is to develop a multiagency 
coordination system, implement communication plans, or continue 
existing efforts, counties are struggling to find the necessary 
resources to execute these policies. We must be united in our 
goal to ensure that the Delta region is able to quickly respond 
to and prepare for any natural disasters. At a time when our 
budgets are already stretched thin, we must prioritize. 
Preventing a disaster that may devastate our families, homes, 
and economic livelihood should be at the very top of our list.
    We must focus our investment on strengthening our levees 
and shoring up our safety, not spending money on poorly planned 
new projects.
    There is still much work to be done on this issue, and the 
task force's report is an important step in the right 
direction. I look forward to everyone's testimony today, and I 
am ready to find commonsense ways for all of us to protect the 
Delta and its residents.
    With that, I yield back, Mr. Chairman.
    Mr. Denham. Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman, and thank you for 
having me here today.
    Thanks, Mr. McNerney, for hosting us here in your district.
    I see my colleague from the Armed Services Committee, Mr. 
Garamendi, here today.
    This is my first trip to Stockton. On the trip--ride over 
here, I was surprised, actually shocked to see the size of the 
port you have here in Stockton. When they said there was a 
port, I expected to see some little boats floating around, but 
it is a significant port and a significant asset for a 
community 60 or 70 or 80 miles inland from the coast. That is 
something that, again, surprised you had it, but as Jerry and I 
spoke here a little bit, what a great asset.
    You look all over this country--I am off track here a 
little bit, but I am so taken with it that I just want to say 
this. You have a port inland, and in this country in 
California, Pennsylvania, the south and southern coast, all 
those ports right on the coastline are very congested, very 
difficult to get shipping products in and out of there, to get 
them on the boat to the truck, to the train. So you really have 
a great asset, and I would urge you to continue to develop it 
and keep it open, keep that channel deep enough to bring those 
big boats in here. It helps the economy of this area, but it 
helps the economy of the United States.
    Again, I want to thank my colleague, Chairman Denham, for 
holding this important hearing, and also his great work that he 
has done as the subcommittee chairman. He is leading the 
fight--I think everybody by now has seen what is going on at 
the GSA, and it is Jeff Denham who is the guy leading the 
charge, trying to push back on that waste and abuse that is 
occurring at the GSA. So he has done a great job.
    If you haven't seen it on the news, you have probably seen 
Chairman Denham on the news railing about it. But he is doing 
absolutely the right thing.
    But it is important that we have this hearing today because 
of the nature of hazards that come to California--earthquakes, 
floods, wildfires. You name it, California has to prepare for 
it. The Chairman has assured me that none of that is going to 
occur today while I am here, and I am going to hold you to 
that.
    But as a Californian, he knows the importance to plan and 
prepare for disasters, and he has held a number of these 
hearings focusing on improving emergency preparedness. As a 
former chairman of this subcommittee, and I was a member also 
of the special panel that we investigated the preparation and 
response to Hurricane Katrina, so I am very familiar with the 
critical importance of preparedness, effective emergency 
management, and the consequences of when they do not work as 
they should.
    Our work at the time resulted in the Post-Katrina Emergency 
Management Reform Act, which authorized a national preparedness 
system, and among many things, it authorized FEMA for the first 
time in the legislation.
    One of the things, as I studied the area here, there is a 
lot of similarities between the Delta and the New Orleans 
region, the main thing being that you have a lot of areas that 
are below sea level, which can cause terrible, terrible 
problems, as we saw in New Orleans.
    So I am proud to be working with Mr. Denham, who is the 
author of H.R. 2903, which is the FEMA Reauthorization Act. It 
is out of committee. We hope to get it on the Floor in 
September and pass it out of suspension, because I think it is 
one of those pieces of legislation that people from the Delta, 
people from New Orleans, people from all over the country can 
get behind to make sure that we have a robust authorization in 
place, especially as we are now in the hurricane season on the 
east coast.
    As Mr. Denham has pointed out here in Stockton today, 
specifically we are examining planning preparedness for the 
Sacramento-San Joaquin Delta region. So I look forward to 
hearing from all of our witnesses----
    Mr. McNerney. Will the gentleman from Pennsylvania yield?
    Mr. Shuster. Yes, sir.
    Mr. McNerney. I just wanted to thank you for your comments 
on the Delta. The Delta is well known to this district as being 
an economic driver, and it is important that someone from out 
of State can come here and see what a resource that is for our 
community, and we can work together to make sure that the Delta 
continues to receive resources and gets dredged once in a 
while, creates jobs for our region. So thank you for that 
comment.
    Mr. Shuster. Absolutely, and I think it is important that I 
realize it, coming from Pennsylvania. I know the Central Valley 
is the bread basket of probably the world. I was in a factory a 
couple of years ago that produced tomato sauce, and I said 
where do you get your tomatoes? And they said, well, everybody 
gets their tomatoes from the Central Valley.
    So this is important not only to California but to the 
United States and to the world. So again, I appreciate it, and 
I yield back, Mr. Chairman.
    Mr. Denham. Again, I would like to welcome our witnesses 
here today. Our first witness this morning is the Honorable 
John Garamendi.
    I ask unanimous consent that our witness' full statement be 
included in the record. Without objection, so ordered.
    Since your written testimony has been made a part of the 
record, the subcommittee would request that you limit your oral 
testimony to 5 minutes.
    Mr. Garamendi, you may proceed. Welcome.

TESTIMONY OF HON. JOHN GARAMENDI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Garamendi. Thank you, Chairman Denham.
    Mr. Shuster, thank you for coming to California. You are 
quite correct about the deep water, about the port here. I will 
also remind you that we have requests for money to deepen the 
channel. I am sure that since you are on both the House Armed 
Services and the Transportation Committee, you will take that 
into consideration and provide the opportunity for even more 
ships to come not only to Stockton but to Sacramento. And some 
day, we will take you on a tour of the Delta, perhaps before 
you leave. You will enjoy it. It is an extraordinary place.
    I have had the pleasure since 1974 of representing the 
Delta in one or another forms, as a member of the California 
Legislature, later as an insurance commissioner dealing with 
emergencies here in the Delta, and then at the Department of 
the Interior, where I had specific responsibility for the water 
and the Delta here in California. More recently, I do represent 
the Delta in the 10th Congressional District.
    We have seen it over the years. We have seen the 
emergencies. We have seen the Delta levee breaks beginning back 
in, for me, 1975-1976, and it is ongoing. The importance of 
this hearing cannot be underestimated. It is critical that you 
carry out the recommendations, that the Federal Government 
carry out its part of the recommendations that have been put 
forth by the task force. They are good recommendations. They 
call for coordination. They call for enhanced training and 
preparation. All of that is critically important.
    It also calls for money. We cannot ignore it. We are going 
to pay earlier, or we are going to pay late. Paying late, you 
are going to pay a lot more, which brings me to the point that 
I would like to bring to the attention of this committee, since 
you are the infrastructure and transportation committee.
    It is critically important that we pay attention to the 
infrastructure needs of the Delta. The levees in the Delta are 
old. They were basically agricultural levees built over the 
last century or so. They were never designed to deal with the 
current pressure that is put on the levees both because of the 
subsidence of the interior islands, as well as the increased 
water flows.
    So we need to deal with that. Otherwise, the entire Delta 
could be at risk from a levee break at one of the key islands. 
The State spent time, and the Federal Government through the 
Bureau of Reclamation and the Corps of Engineers, have spent a 
lot of time studying the Delta. They have spent precious little 
time spending money on repairing the levees of the Delta, 
except when a levee breaks, and then a lot of money is spent.
    You mentioned lessons learned from New Orleans. Well, the 
lesson, at least one of the lessons from New Orleans is prevent 
the levee failure. That is, take early action, build the levee 
properly, and prevent the levee failure. That same lesson needs 
to be applied here in California.
    We also are dealing with a very significant change in the 
very nature of the Delta. This is a proposal that has been 
ongoing for some time, or at least a study that has been 
ongoing for some time called the Bay Delta Conservation 
Planning Process, what to do with the water system in the 
Delta, the dual goals of water delivery to those folks south of 
the Delta pumps at Tracy, and the environment and the economy 
and agriculture of the Delta itself.
    A proposal hit the street a month-and-a-half ago by the 
Governor and by the Department of the Interior that will have 
profound effect on the Delta. It is a dual conveyance proposal, 
one that calls for the creation of two tunnels, 15,000 cubic 
feet per second capacity, that would take water out of the 
Sacramento River north of the Delta and deliver it to the 
pumps.
    It is a dual system, one that would also take water from 
the Delta as it presently occurs. That pumping from the Delta 
has gone on for some 60 years by the Federal Government, and a 
little less by the State government, using the Delta levees as 
a plumbing system to deliver water from the Sacramento to the 
pumps at Tracy.
    That plumbing system has not been maintained. Essentially, 
it has been a plumbing system that has occurred for more than 
half a century with precious little maintenance of the levees, 
which are the essential elements of that plumbing system. We 
need to address that. It is essential that in going forward, 
that the Federal Government and the State government address 
the Delta levee maintenance issue. Otherwise, we are going to 
spend forever dealing with emergencies.
    The cost of repairing the Delta levees is thought to be 
somewhere between $2 and $4 billion. The cost of an emergency 
is somewhere between $8 and $16 billion. That is a catastrophic 
failure. It would make sense to spend money on prevention 
rather than in dealing with the emergency, another lesson from 
New Orleans.
    If I might take another minute, Mr. Chairman, with your 
permission.
    So as we move forward here with this hearing, you are 
dealing essentially with how to deal with an emergency. I want 
to draw your attention to how to prevent the emergency from 
happening in the first place.
    It is incumbent upon those who use the Delta--that is, the 
farmers and communities in the Delta--to maintain their levees, 
and they have. It is also incumbent upon the Federal and the 
State governments who also use the Delta levees to do its share 
in maintaining those levees. It is cost effective. It is wise. 
Its importance on human life and economic life cannot be 
understated.
    So I want you to leave this hearing today with at least an 
understanding, if not a commitment, to preventing an emergency, 
to spend the money in prevention that is upgrading the levees 
to a standard that can withstand both the pressure of a flood, 
as well as the potential of an earthquake. It is the cheapest 
possible investment, prevention, upgrading those levees.
    It is also essential in any water system that the State 
might comprehend in the future, whether it is a dual tunnel or 
a continuing pumping through the Delta, that the levees must be 
maintained, and it is the responsibility of those who use the 
Delta levees as a plumbing system to maintain those levees.
    With that, Mr. Chairman, thank you for the forbearance and 
the extra minute.
    Mr. Denham. Thank you for your testimony this morning.
    At this time, we will call up our second panel.
    On the panel is Mr. Robert Fenton, Jr., assistant 
administrator for response, Federal Emergency Management 
Agency, FEMA; Mr. Brendan Murphy, assistant secretary, 
California Emergency Management Agency, CalEMA; Ron Baldwin, 
former director of emergency operations for San Joaquin County; 
Timothy Alan Simon, commissioner, California Public Utilities 
Commission; and Mr. Alexander Coate, general manager, East Bay 
Municipal Utility District.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered.
    Since your testimony has been made a part of the record, we 
would ask you to keep your oral testimony to 5 minutes.
    Mr. Fenton, you may proceed.

 TESTIMONIES OF ROBERT J. FENTON, JR., ASSISTANT ADMINISTRATOR 
    FOR RESPONSE, OFFICE OF RESPONSE AND RECOVERY, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY; BRENDAN A. MURPHY, ASSISTANT 
 SECRETARY, CALIFORNIA EMERGENCY MANAGEMENT AGENCY; RONALD E. 
 BALDWIN, FORMER DIRECTOR OF EMERGENCY OPERATIONS, SAN JOAQUIN 
  COUNTY; TIMOTHY ALAN SIMON, COMMISSIONER, CALIFORNIA PUBLIC 
UTILITIES COMMISSION; ALEXANDER R. COATE, GENERAL MANAGER, EAST 
                 BAY MUNICIPAL UTILITY DISTRICT

    Mr. Fenton. Good morning, Mr. Chairman and members of the 
committee. My name is Robert Fenton. I am the assistant 
administrator for response. As a fifth generation San 
Franciscan, I have spent a lot of time in the California Delta 
region. I came to my current role in 2009 after 13 years of 
service with FEMA's Region IX in our Oakland office, which 
serves not only California but the States of Arizona, Nevada, 
Hawaii, Guam, American Samoa, and other U.S. interests.
    During that time, I supported the response to major floods 
in the California Delta in both 1997 and 1998, and I appreciate 
the opportunity to return home to discuss FEMA's support of 
current planning and preparedness efforts in this region.
    As you know, the Sacramento-San Joaquin Delta is a region 
where two of California's largest rivers meet. Over 1,100 miles 
of levees created 57 leveed island tracts, some of whose 
surface can be 20 feet or more below the outside water level. 
Two-thirds of all Californians, about 23 million people, and 
millions of acres of irrigated farmland rely on the Delta for 
water. Disruption of this water flow due to a disaster would 
have a devastating impact on California and would create widely 
felt impacts across the Nation.
    Through our FEMA Region IX Office, FEMA and our partners 
are deeply engaged in addressing the long-term water-related 
issues in California through a whole-community approach. This 
approach to emergency management engages not only the Federal, 
State, local, tribal and territorial governments, but also the 
private sector, nongovernmental organizations, and the public 
to collectively understand and address the community needs. 
FEMA has joined with partners across this whole community to 
implement cooperative policies that support adequate, safe, and 
dependable water supplies for the people, businesses, and 
institutions of not just California, but also Arizona, Nevada, 
Hawaii, Guam, and other U.S. interests. This engagement is 
achieved primarily through water-focused joint planning efforts 
and exercises with our partners.
    Most recently, FEMA and our partners have conducted these 
planning efforts in support of Presidential Policy Directive 8, 
which directed the Secretary of Homeland Security to develop a 
national preparedness system that defines the core capabilities 
necessary for the Nation to prepare for incidents of greatest 
risk. This system will include a series of integrated national 
planning frameworks covering prevention, protection, 
mitigation, response, and recovery, and will inform planning in 
support of these frameworks at every level of Government 
through a national planning system.
    As we work to implement PPD-8, our planning assumptions for 
catastrophic disasters continue to be based on worst-case 
scenarios. They are designed to challenge preparedness at all 
levels and force innovative, nontraditional solutions as part 
of the response and recovery strategy to such events. FEMA and 
our partners seek to identify the highest priority tasks 
necessary to save and sustain lives and stabilize a 
catastrophic incident during the critical first 72 hours, and 
we work across all segments of the society to identify how we 
can collectively achieve these outcomes.
    FEMA also conducts regional catastrophic planning to 
address area-specific disaster scenarios which present greater 
likelihoods of occurrence based on location. Much of this work 
is coordinated through our Regional Interagency Steering 
Committees, which are senior-level entities that address issues 
related to response and recovery in all of FEMA's 10 regions.
    In California, the San Francisco Bay Area Earthquake 
Response Plan, published in 2008, and the Southern California 
Catastrophic Earthquake Response Plan, published in December 
2010, are based on input from thousands of emergency management 
professionals and describe the joint State and Federal response 
to catastrophic earthquakes. These plans address the potential 
damage to water infrastructure systems, including distribution, 
treatment, and sewage systems.
    In addition, the Cascadia Subduction Zone Planning Project 
represents a whole-community partnership to develop a disaster 
response plan based on a magnitude 9.0 earthquake along the 
Cascadia Subduction Zone. This disaster response plan describes 
activities, including collaborative efforts, to be implemented 
in the immediate aftermath of an earthquake along the 
subduction zone.
    In conjunction with broad-based planning efforts like our 
catastrophic and hazard-specific planning, FEMA also continues 
to support the State of California in preparing for 
catastrophic disasters in the densely populated Los Angeles and 
San Francisco metropolitan areas. Essential to these efforts is 
a shared and coherent analysis of threats to potable water 
production and distribution in communities at risk for severe 
ground-shaking.
    In addition to our planning efforts, FEMA brings together 
emergency management professionals across the whole community 
to improve preparedness by exercising plans. As part of the 
2008 California statewide Golden Guardian Exercise, FEMA and 
the California Emergency Management Agency joined other State, 
local, tribal, governmental, and nongovernmental stakeholders 
exercising the San Francisco Bay Area Earthquake Plan. This 
year's Golden Guardian Exercise includes a test of the Southern 
California Catastrophic Earthquake Response Plan, including the 
establishment of a water conveyance task force to assist in the 
restoration of potable water deliveries following a magnitude 
7.8 earthquake.
    Finally, to further promote awareness and preparedness, 
FEMA and CalEMA have established a Memorandum of Understanding 
related to disaster assistance in the Delta area. The MOU 
establishes eligibility for FEMA's Public Assistance program in 
the special reclamation districts for the Delta area. The MOU 
also identifies responsibilities of FEMA, CalEMA, and the 
reclamation districts during and after an event.
    FEMA's preparedness efforts in the Sacramento-San Joaquin 
Delta area are exemplified by the water-focused joint planning 
and exercises that occur there regularly. By engaging the whole 
community in catastrophic, all-hazards, and hazard-specific 
planning, and in the exercises that test and evaluate these 
plans, we continue to address the long-term water-related 
issues in California. Thank you.
    Mr. Denham. Thank you.
    Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman, Congressman Shuster 
and Congressman McNerney. Thank you for allowing me the 
opportunity to once again testify before this committee and 
provide testimony today regarding the Sacramento-San Joaquin 
Delta.
    The California Emergency Management Agency is responsible 
for coordinating the State's overall preparedness efforts and 
enhancing our capabilities for both intentional and natural 
disasters. CalEMA coordinates homeland security and emergency 
response under the mission of saving lives and reducing 
property loss during times of disaster and works to expedite 
recovery from the effects of disasters.
    In coordination with the National Preparedness Goal, 
California's overall preparedness system is comprised of five 
mission areas: prevention, protection, mitigation, response, 
and recovery. One of the significant lessons we have learned is 
that we must focus our investments on disaster preparedness 
efforts so that we can mitigate the devastation of human 
suffering and financial loss for future generations. We have 
learned that we must invest financial resources on the front 
end to ensure that our infrastructure is secure, that early 
warning systems are in place, and that the public is well-
informed about potential risks and have the tools they need to 
prepare themselves and their families for when disaster 
strikes.
    As you are all aware, California is faced with a daunting 
list of disaster risks. Much like the likelihood of a 
catastrophic earthquake, the daunting threat and risk of a 
catastrophic flood incident within the California Delta is not 
just real, but it will happen. As our scientists warn, it is 
not a matter of if it will occur, it's just a matter of when.
    The Sacramento-San Joaquin Delta Emergency Preparedness Act 
of 2008 required CalEMA to establish the Sacramento-San Joaquin 
Delta Multi-Hazard Coordination Task Force. The Task Force was 
comprised of CalEMA, the Delta Protection Commission, the 
California Department of Water Resources, and the five counties 
within the Delta region: Contra Costa, Sacramento, San Joaquin, 
Solano, and Yolo.
    The mission of the task force was to develop 
recommendations to improve the quality and effectiveness of an 
all-hazard emergency response in the Delta region, while 
maintaining a level of readiness consistent with identified 
threats and our current capabilities. As a result of the 
recommendations and efforts of this task force, we have worked 
with our partner agencies to make significant strides towards 
these efforts.
    We adopted and implemented a Delta Multiagency Coordination 
System which was successfully exercised during the 2011 Golden 
Guardian Full-Scale Exercise to test the State's ability to 
allocate scarce resources throughout the Delta region during a 
catastrophic flood scenario. The exercise focused on preparing 
for, responding to, and recovering from a catastrophic flood in 
the northern region and included more than 5,000 local, 
regional, State and Federal responders, as well as State 
agencies and nonprofit emergency response and private industry 
partners who participated in various events throughout the 3-
day exercise.
    The Delta MACS document is in the process of being 
integrated into statewide procedures to ensure maximum 
efficiency and standardization for emergency response with our 
key partners, including local stakeholders, the California 
National Guard, and the California Department of Water 
Resources.
    CalEMA held a regional mass evacuation tabletop exercise on 
January 11, 2012, to provide participants an opportunity to 
evaluate their current response concepts, plans, policies, 
procedures, and capabilities for notification, evacuation, and 
mass care and sheltering in response to a flood-based scenario. 
This exercise was a regional collaboration between CalEMA and 
its local and State partners and will serve towards the 
development of a regional mass evacuation plan in relation to 
the Delta flood scenario.
    The California Delta region also has an Interoperable 
Communications Plan that was updated in February of 2011, and 
these documents for interoperable communications resources are 
available within the designated area. The plan also includes 
specifics such as who controls each resource, along with the 
rules of use and/or operational procedures for the activation 
and deactivation of those resources.
    For flood and evacuation contingency mapping, CalEMA, in 
direct partnership with the California Department of Water 
Resources and other State and local stakeholders, participated 
in a project led by the U.S. Army Corps of Engineers which 
identified resources and facilities in the Delta, or those that 
could be easily deployed to the Delta, for any emergency 
response operation during a flood event. As part of this 
effort, existing shelter and evacuation plans were reviewed to 
recognize resources and opportunities available for response 
and identify weaknesses and needs. A series of flood 
contingency maps were prepared to highlight the identified 
resources and outline general emergency response procedures.
    We all know the work we do is faced with uncertainties and 
we must continue to work together to ensure our resources are 
put to the best use possible. California continues to be 
recognized as a national leader in homeland security and 
emergency preparedness, and with your support we will continue 
to work tirelessly to advance the efforts which we believe will 
provide the greatest benefit to our State and Nation.
    Mr. Denham. Thank you, Mr. Murphy.
    Mr. Baldwin.
    Mr. Baldwin. I'll get this turned on. Is it on now?
    Mr. Denham. There we go.
    Mr. Baldwin. I'm Ron Baldwin, former director of emergency 
operations for San Joaquin County for nearly 30 years. I sat on 
the task force and participated in all the discussions leading 
to the issuance of the report. I'll just make two brief 
comments to supplement my written testimony.
    I believe that if the committee wants to delve into the 
specific recommendations of the report, I again encourage you 
to distinguish between the two key separate components of 
emergency flood response. There are those activities that most 
people equate with the words ``emergency response'': 
evacuation, rescue, shelter, and there is the ``flood fight.'' 
The flood fight is those actions to prevent levee failure 
during a flood, and if a levee fails it is those engineering 
actions to limit the extent, the depth, and/or the duration of 
the flood.
    It is important to make that distinction for two reasons. 
The practical reason is that there are different players and 
different issues in each. The second is because if I learned 
anything in 30 years and seven floods, it is that if we want to 
improve flood response, our prime focus has to be on the flood 
fight. If we are as efficient and effective as possible in 
preventing levee failure once the flood comes, and if we are as 
efficient and effective in limiting the physical extent, depth 
and duration of the flood if a levee breaks, then we prevent or 
physically limit the tragedy and the damage. If we do the other 
functions well, that is important, but we only ameliorate the 
tragedy.
    I would include in the idea--I mentioned three specific 
recommendations of the report that bear on that: Delta MACS, or 
the idea of regional planning; flood contingency mapping or 
defense indepth; and the flood fight emergency funding 
mechanism. I would also include the idea of secondary defenses 
behind some of our critical infrastructure that is protected by 
levees in this country.
    I will make a rather bold statement. In my experience--I 
can do that; I am retired. In my experience in this country, we 
are not as well prepared for the flood fight as we could be.
    The second point I will make is we now have a strategy. 
This is very unique, and I think the legislature recognized the 
importance of the Delta. It isn't done for everything 
everywhere. I mean, we have a strategy that was developed for 
improving response in the Delta, and I am assuming that all 
agencies and levels of Government accept that strategy and want 
to move forward. I just mentioned two good public 
administration steps that need to be taken now.
    The first question is funding. I was brought up, how do we 
fund the implementation of the strategy? Normally that is a 
killer, right? In this case, there are actually quite a bit of 
funds that are flowing down from quite a bit of different 
sources that are going into flood or could go into flood 
preparedness.
    So the question is how is the funding going to tie in with 
the strategy, and at some point we would want to see how that 
is going to happen. I mean, if the Corps has money, what are 
you going to do about the strategy? So we don't end up 2 or 3 
years down the road with duplication of effort or, oops, we 
forgot to implement something in the strategy, or whatever. So 
we need to work out the implementation fiscally, and it is an 
historic moment. We have the funds to do it and we have the 
strategy to move ahead.
    The second issue really is also good public administration. 
It is a combination of standards. How do we know we got there? 
The task force did its job. We have a strategy. It is very 
general. It is very vague. You could interpret it 50 million 
different ways while saying, well, we got there.
    There needs to be a process of multiple agency review as we 
move through the strategy with the State and Federal 
Governments, and local governments move through the strategy, 
to say, yes, we finished this, and it meets the standards that 
we want, so we have something we can report back in 3 or 4 
years and say, yes, we set some standards for what it means to 
have a flood contingency map, we met some standards for what it 
means to have a MACS, and through a multiagency process we 
confirmed that that actually happened and meets the standards 
that are either out there or that we developed.
    So I think those are important as we move, and this is a 
critical point to establish that, and I will actually finish 
about a minute early on my statement.
    Mr. Denham. You set an example for everybody else.
    [Laughter.]
    Mr. Denham. Thank you, Mr. Baldwin.
    Mr. Simon.
    Mr. Simon. Thank you. Is my mic on? OK.
    Good morning, Chairman Denham and distinguished members of 
the subcommittee. Thank you for this opportunity to speak.
    The California Public Utilities Commission, or CPUC, is 
responsible for the safety and security of critical utility 
infrastructure for water, natural gas, electricity, 
communications, and rail within the Delta and throughout the 
State.
    The CPUC's authority over investor-owned utility 
infrastructure in the Delta includes pipelines carrying natural 
gas for residential, commercial, and industrial use, as well as 
electric generation. As chair of the Committee on Gas for the 
National Association of Regulatory Utility Commissioners and a 
member of the Pipeline Safety Task Force for the U.S. 
Department of Transportation's Pipeline and Hazardous Materials 
Safety Administration, I have a particular concern with 
pipeline safety.
    The Delta levees protect natural gas production and 
pipeline facilities throughout the Delta. Many gas and oil 
production wells are located here, and the region's electric 
utility, Pacific Gas and Electric, or PG&E, has transmission 
and distribution pipelines running throughout the Delta to 
transport gas from northern California and from out of State. 
PG&E also has pipelines that interconnect its own system, 
diverting gas to and from underground storage facilities 
located on islands in the Delta such as the McDonald Island gas 
storage field.
    Although some facilities are designed to withstand various 
levels of irrigation and flooding for local agricultural needs, 
the gas production and transportation infrastructure could be 
damaged if it is not designed for floodwater levels from levee 
breaks. Generally, high-pressure pipelines are not affected by 
the presence of some water near the line, but unanticipated 
flooding that would otherwise be averted by the levees could 
cause soil erosion under the pipelines. Excess water around 
pipelines could also increase the buoyancy of some of these 
pipelines. These conditions, along with significant increases 
in water levels above the pipeline, could create stresses which 
may not have been factored into the pipeline's original 
designs.
    In response to the horrific pipeline rupture and explosion 
in San Bruno, California, in fall 2010, the CPUC opened a 
rulemaking proceeding to establish a new model of natural gas 
pipeline safety regulation, including expanding our emergency 
and disaster planning coordination with local officials. The 
CPUC also increased the scope of PG&E's gas transmission and 
storage rate case to include a safety phase on PG&E's disaster 
and emergency plans, shut-off valve testing and monitoring, 
changes to capital project priorities, safety procedures, and 
relationships with first responders. I was the assigned 
commissioner for that proceeding.
    The gas storage proceeding was the first to establish 
protocols requiring utilities to coordinate with first 
responders during emergencies. In addition to addressing 
pipeline safety, the CPUC has moved to ensure the safety 
factors of electrical and telephone poles so that they are 
strong enough to withstand high winds, flooding, and other 
disasters.
    In the Joint Pole Safety rulemaking, the commission has 
adopted pole loading rules and will address pole structural 
strength in the next phase, that being Phase III, of this 
rulemaking.
    The CPUC also has an essential role in ensuring the 
reliability of emergency communications during disasters. 
Inspired in large part by Hurricane Katrina and the WARN Act, 
in 2006 the California Legislature adopted AB 2393, which 
required the CPUC to address communication systems' backup 
power needs. Unlike copper telephone wires, fiber optic cable, 
coaxial cable, and other facilities do not provide warm-line 
power to customer telephones. In the Backup Power proceeding, 
the CPUC adopted customer education guidelines on the backup 
power needs and limitations of facilities-based residential 
telephone services, as well as service provider 
responsibilities in power outages.
    CPUC jurisdiction has been an issue in the Joint Pole 
Safety proceeding and others. One of the pillars of the CPUC's 
fundamental regulatory responsibility is to enforce core safety 
guidelines. This commission needs the ability to protect and 
insure the functioning of communication infrastructure during 
emergencies. This role is clearly within the authority of the 
CPUC and rooted in the historic police powers of the State. 
Some may believe that the transition from the traditional 
telephone system to Internet Protocol communications systems 
may jeopardize the authority of State utility commissions in 
this area. I urge Congress to take a close look at this issue.
    States retain jurisdiction over the health, safety, and 
welfare of their citizens, and it is the position of my office 
that the CPUC has now and will continue to have jurisdiction 
over the communications infrastructure for public safety 
purposes.
    With that said, I thank you for this time.
    Mr. Denham. Thank you, Mr. Simon.
    Mr. Coate.
    Mr. Coate. Mr. Chairman and members of the subcommittee, I 
appreciate very much the opportunity to provide testimony this 
morning on the importance of emergency preparedness and 
response. My name is Alexander Coate. I am the general manager 
for the East Bay Municipal Utility District, and I appreciate 
very much the opportunity to provide testimony on the vital 
role that Government plays in emergency preparedness and 
response in the Delta.
    This morning I would like to focus on the real impacts of 
levee failure and the actions we recommend be considered by 
this committee.
    Through direct experience we have learned some important 
lessons on emergency preparedness that we believe can help 
inform future discussions. Levees that protect the lifeline of 
our water system, the Mokelumne aqueducts, have failed three 
times since 1980. The most recent failure occurred on June 3rd, 
2004. It was a clear day, and with no warning, the Upper Jones 
Tract levee along Middle River failed. There was no 
precipitating event such as an earthquake or a storm. The levee 
simply gave way to the water that it held back.
    Ultimately, both the Upper and Lower Jones Tract islands 
were inundated with flood waters, partially submerging our 
aqueducts. I have a photograph over here that shows you what 
that looked like after the flood had occurred.
    This was a true emergency for East Bay MUD. Over 90 percent 
of the drinking water we supply to 1.3 million people is 
transported through these aqueducts. They are also connected to 
the San Francisco, Contra Costa and Dublin San Ramon Services 
District water systems.
    A failure of the aqueducts would interrupt the East Bay's 
water supply and leave the region with, at most, 6 months' 
worth of water under severe rationing conditions.
    First responders like East Bay MUD quickly depleted their 
available resources, and we were forced to stand by until 
additional resources were made available.
    Response times were delayed because field staff were not 
empowered to act and had to wait for authorization. Aqueducts 
were threatened by massive debris, and authorizations were 
received only in the nick of time to prevent that debris from 
hitting the aqueducts and rupturing them.
    You can see after draining, there is a bus there. That bus 
almost hit the aqueducts.
    Once the flood waters were pumped out, the aqueducts were 
found to be intact, but re-coating was necessary at a cost of 
$10 million.
    The key lesson that we learned from the failure of the 
Jones Tract levee is the importance of having a well-
coordinated emergency action plan that includes a commitment by 
State and Federal agencies to provide resources and funding to 
repair the levees. Because the consequences of delaying action 
after a levee break can be catastrophic, the extent of the 
Federal and State commitment should be known and communicated 
in advance so that local agency staff are empowered to respond.
    I highlight this event because it provides a case history 
of the real consequences that can result from indecision and 
inadequate policy and collaboration among all levels of 
Government.
    The 51 miles of levees that protect East Bay MUD's 
aqueducts in the Delta also protect other critical 
infrastructure, some that we have discussed here today. That 
includes the State and Federal export pumps, the Contra Costa 
Water District intakes, State Highway 4, Kinder Morgan 
Petroleum Pipeline, PG&E pipelines, and the Burlington Northern 
Santa Fe rail lines. An immediate response to future levee 
failures will be critical to minimize costs and prevent 
significant interruptions of major services.
    We know from experience that the threat of future failures 
in the Delta is real, and EBMUD has taken multiple actions to 
protect its facilities, including significant investments in 
levee improvements, seismic retrofit of our aqueducts, 
constructing interconnections between our three aqueducts to 
improve resiliency, providing interties with other water 
systems in our service area, implementing aggressive water 
conservation and recycling to reduce our dependence on supplies 
rolling through the Delta.
    Despite the tremendous amount of work that we and others 
have done to prepare for emergencies, much more could be done 
if additional resources were available.
    First, we believe a coordinated State and Federal response 
plan is vital to ensure a rapid emergency response.
    Second, we hope that when your committee renews the Water 
Resource Development Act, you will give consideration to the 
approaches that we implemented. We recommend that a Federal 
program to assist such efforts be authorized. We urge you to 
view emergency preparedness in the broadest sense, not only to 
include levee repair and material stockpiling, but also efforts 
to diversify and increase the reliability of water supplies, 
and to bolster infrastructure.
    WRDA funding has been very important to us in developing 
alternative water supplies through recycling, and we view WRDA 
as a key vehicle to develop effective Federal policy to support 
local emergency preparedness efforts.
    Finally, we recommend that you consider funding of levee 
improvements to meet the U.S. Army Corps of Engineers' Public 
Law 84-99 Standard, and in so doing reduce the risk of 
failures, and also funding for stockpiling of emergency 
response materials.
    And with that, Chairman and members of the committee, I 
very much appreciate this opportunity to provide testimony.
    Mr. Denham. Thank you.
    I thank all of our witnesses for your opening statements.
    We are going to have several rounds of questioning this 
morning. This is one of those topics that we could have a whole 
series of hearings on, everything from the threats to the task 
force process, the planning and preparedness, what the actual 
role of FEMA is, the mass evacuation if there was a 
catastrophic disaster, and then the flood and evacuation 
contingency planning.
    Here in the Delta, we have some old pipelines, oil and gas, 
that could devastate our water supply. We certainly have a 
water supply that not only supports our agriculture industry 
but supports the water supply for the larger metropolitan areas 
as well.
    But the biggest issue here is you have a couple of very 
large communities that are below sea level, and a break in the 
levees could see something worse than what we saw with Katrina.
    And so as chair of this committee, I want to make sure that 
not only are we prepared and doing some of the important repair 
work that needs to be done, but as we develop a new FEMA plan, 
that we are actually taking into consideration the flood-type 
situations that we saw in Katrina and learn from past 
experiences in making sure that we are not seeing the same 
challenges right here in our home State.
    So I will start off this morning. Mr. Baldwin, you 
mentioned the importance of immediate funding for flood 
fighting. Do you think the agreement with FEMA will allow a 
rapid response if such a catastrophe does arise?
    Mr. Baldwin. I think there needs to be a very--the problem 
is that nobody budgets for these floods. As far as the flood 
fight, we have some very expensive responses. I mean, it is not 
a matter of getting a few more fire engines or something. You 
might have to cut a contract with an engineering firm for $1 
million to buttress the levee or something.
    What we end up doing is we get out there and the 
reclamation district, which is naturally the one that should 
respond, doesn't have the cash flow. So the agencies that do 
have the funds or potentially could get the funds are farther 
up the chain, State or Federal, and so it takes more time for 
them to get going. Sometimes we end up out there, and Jones 
Tract was great. I was the one sitting out there within an hour 
of that break, and we are sort of arguing over who can fund it, 
who can act. We know what we need to do, but who can actually 
take the action?
    There are some issues with FEMA, jurisdictional issues 
about reimbursement. I could go into a lot.
    So what we need to do is FEMA comes in after the disaster 
and helps reimburse costs, and that is great, under the 
Stafford Act. But what we need is we need to get cash flow 
going at the time of the emergency for the flood fight so that 
the agency's best placed act, when we know, we all jointly 
agree, here is a problem and we need to deal with it, can 
actually get it going.
    So we have recommended, and the task force recommended, we 
said we have to have that mechanism. It is not an agreement. It 
is not money coming later. When that flood starts, we have to 
have funds. Now, there has been talk about an emergency 
response fund for the flood operation center at DWR. There is 
talk about using the California Disaster Assistance Act to push 
money out. It could be an independent fund, and all that could 
be worked out.
    But the issue is it is not money coming after in 48 hours. 
It has got to be funds that can break that deadlock and we can 
actually respond to the problem and get it done by the agency 
best placed to do it. It could be the Corps. It could be DWR. 
It could be the reclamation district.
    Mr. Denham. If there was a catastrophe today, would you 
anticipate delays in funding?
    Mr. Baldwin. I would anticipate that I have not seen a 
clear-cut, unambiguous solution that would guarantee in my mind 
that we could not run into that problem again. Sometimes it 
works, sometimes it doesn't, but I think it is--I mentioned in 
my testimony, I think it is absolutely critical. We have got to 
have--we can't have 24-hour delays waiting to respond to a 
levee problem for bureaucratic reasons. We have got to have the 
cash flow, and it has got to go to the agency.
    It is in the task force recommendation. I haven't seen the 
solution that tells me that when the flood comes tomorrow, we 
will respond as promptly as possible, we will get the levee 
fixed, which will save FEMA and everyone else millions of 
dollars, and we will respond to that.
    Can I add one last point? FEMA has a little regulation in 
their reimbursement which makes sense, but it doesn't make 
sense. They only reimburse you the costs for expenses incurred 
within your jurisdiction. So if the county goes on a levee, the 
levee is in the jurisdiction of the reclamation district. We 
are endangering our ability to reclaim any reimbursement from 
FEMA due to that regulation. San Joaquin County has had a 
legislative platform for years saying we ought to adjust that. 
If an agency goes on another jurisdiction and saves a levee and 
there is $100 million in private assistance payouts, then they 
shouldn't have any question in their mind that they are going 
to get whatever legitimate reimbursement they should get, 
because otherwise you create a disincentive for action, and 
that is what we need.
    Jones Tract--I'm sorry. Last thought. Jones Tract, we know 
what has to be done. So we go through this 24-hour thing, and 
the Corps says, OK, we are going to do this much. We will put 
the levee up, but we know we have to rock it, and we are not 
going to do that. So then we have another argument. OK, who is 
going to put the rock on it? We need to put rock on, or this 
thing will wash away. The next thing you know, CalTrans raises 
their hand and says we will do it, $2 million or something like 
that. Subsequently, they had a heck of a time getting 
assistance because of that regulation.
    I think, again, it is a regulation that makes sense on the 
face of it, but it probably should be looked at to see if we 
can't speed up those kinds of decisive actions and then make 
sure that the funds are there so that we respond and get it 
done.
    Mr. Denham. Thank you, Mr. Baldwin.
    Mr. Murphy, thanks again for testifying in front of this 
committee once again. Is CalEMA, is it ready for a flood or an 
earthquake in this area?
    Mr. Murphy. I think the easy answer is--it is great for me 
to sit up here and say absolutely, we are absolutely ready. But 
the reality is we have done a lot of planning, and there is 
still more work to be done in working out the intricacies of 
response, especially the point that Mr. Baldwin just made, 
which is when you are looking at a natural levee failure in 
this State, you have a multilayered response. Most of those 
levees are owned by reclamation districts that are located 
inside of counties and/or cities.
    So your buildup is across many layers of Government up to 
the top. We do have some regulations and some other things that 
probably could be better worked out in the scenarios that we 
have seen in the past.
    The easy answer is yes. As far as response goes, we have 
always been able to respond. But the first and foremost part is 
saving lives. The second piece is saving property. And I think, 
to the point of Mr. Baldwin, we could be better at saving 
property if we tweaked a few criteria and moved ourselves 
ahead, and I think inside the State of California we have been 
working at that, and that is what you see in the task force 
recommendations. Those are some of the thought processes that 
we have had to move ourselves forward and to be an action-
oriented response that does save property.
    Saving lives is clearly the first priority. But that 
second, especially when you are talking levees and how quickly 
you lose property, that has got to be and is a much higher 
priority in our moving forward, in our planning going forward.
    Mr. Denham. Thank you.
    Mr. Fenton, same question. Is FEMA ready for a catastrophic 
response in this area--earthquake, flooding?
    Mr. Fenton. Sure.
    Mr. Denham. Destroying the pipelines that go through the 
Delta?
    Mr. Fenton. Well, I think we are as ready as we can be. It 
is a complex issue as far as the Delta and exactly what we 
need. What we have done is built plans that I have spoken 
about. In fact, today we are down in southern California 
exercising some of those plans, and we have joined with 
Federal, State, local government and the private sector to look 
at capabilities across the area.
    I think as we start to understand the risks to the 
communities better--understand what the impacts may be--we have 
been focused on looking at where the capability is required to 
respond to an event like this, where those capabilities exist 
at the local, State and Federal level. It is a dynamic effort, 
meaning the capabilities change at every level of Government 
every year based on budget.
    So we continue to do that to ensure that we will have the 
capabilities there. We continue to look at improving our 
policies to increase the speed of our assistance to 
communities, and also to make sure that communities understand 
the risks within their environments. So we continue to work in 
those areas.
    But I think the authorities that we gained after Katrina 
significantly helped FEMA to build the capability and capacity 
to help the State of California. In saying that, I think there 
is always more we can do. But the authorities we have now, and 
the resources we have, we feel pretty comfortable in being able 
to respond to this event.
    Mr. Denham. Thank you.
    Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Garamendi, in his testimony, referred to the Governor's 
conveyance plan for the BDCP. One significant concern is that 
the preferred plan, if implemented, levee maintenance will 
lapse, placing our community at significant risk. On the other 
hand, investing in levee repair would be an excellent solution 
to the BDCP dual requirements.
    So with that as a background, I am going to address the 
next question to Mr. Murphy, Mr. Baldwin, and Mr. Simon. How 
might the Governor's preferred conveyance affect preparation 
and response to a flood and/or earthquake?
    Mr. Murphy. Congressman, I will be the guinea pig for the 
response here.
    Mr. McNerney. Sure.
    Mr. Murphy. In all honesty, I think until the plan has a 
bit more of a process to it as far as outside of just a 
conveyance water aspect, which is really involved with the 
California Department of Water Resources, I am not in a 
position to answer until we get further down the road with this 
initial agreement plan that was talked about a few weeks ago. 
So I apologize. In the future, I would be happy to address that 
question as we move forward with the broader plan.
    Mr. McNerney. Well, the concern is that a significant 
amount of resources are going to be going into the tunnel 
system, and there won't be any more resources left to improve 
and maintain the levees. So that is basically one of the 
aspects that I am interested in, but you don't seem to be in a 
position to answer that, so let's move on to Mr. Baldwin.
    Mr. Baldwin. That is a tough one for me, too. I mean, if 
you build the tunnel, then you obviously have the issues that 
have been looked at closely of the security and of the 
integrity of maintaining that tunnel to deal with that issue, 
that transport of the water. To me, the Delta is a lot of 
things besides the water. That is one issue. It is also the 
people out there, and it is also the infrastructure that we 
just talked about, the East Bay MUD aqueduct and everything 
else.
    So it doesn't change it much except that, again, if you are 
going to cut off the resources to protect the Delta, then you 
are going to get what you pay for. We need to have a levee--I 
don't get into 100 year, 200 year, 1,000 year. I say, as an 
emergency manager, give us a fighting chance. Give us levees 
that basically will hold it, and we will flood fight it. We 
will keep any damage to a point that is acceptable. I mean, we 
are not going to save all the bridges in L.A. if we have an 
earthquake, either.
    So if you are going to do that, it brings up the issue of 
protecting that infrastructure. At the same time, it doesn't 
change anything except that you have taken one equation out and 
put it into a different context. Now we have to protect this 
tunnel. We still have to protect the Delta for a lot of 
reasons, and we need the resources to give us that fighting 
chance.
    Mr. McNerney. Thank you.
    Mr. Simon, you look at this from a little bit different 
perspective, so I am interested in what you might have to say.
    Mr. Simon. Thank you, Congressman. Our water utilities are 
somewhat dependent upon the transport of water from northern 
California, particularly our southern California investor-owned 
water utilities, and how that allocation occurs is somewhat 
dependent upon our infrastructure.
    I will say prior to coming to the commission, I was 
appointments secretary in Governor Schwarzenegger's 
administration, and I know this issue of levee repair and 
reinforcement is not something new to this administration, and 
I would simply say that it is necessary for our infrastructure 
safety to have safe levees. The investor-owned utilities that 
we regulate are somewhat reliant upon that levee strength in 
order to maintain the adequate infrastructure in the region.
    So I would hope that to whatever extent the tunneling that 
is being proposed by the administration occurs at that factor 
of the levees and the importance that the levees play on a 
multitude of infrastructure that is webbed throughout the Delta 
region is taken into consideration, and I would expect that it 
is.
    Mr. McNerney. Thank you, Mr. Simon.
    Mr. Baldwin, how effective is investing in levee 
maintenance and improvements in mitigating potential flood 
risks?
    Mr. Baldwin. That is what I am saying. It is the ongoing 
debate, what is adequate. I mean, this is what this country has 
argued for 50 years, what is adequate protection as far as that 
primary levee for our community. There is always an element of 
risk. I mean, a 100-year levee, do you maintain that? 
Obviously, whatever standard you set--FEMA set the 100-year 
standard 40 years ago. If you want to set 200-year or 500-year, 
then we have to maintain it. I mean, that is only sensible.
    Once you make that decision, then you get into the flood 
fight to take care of that procedural risk, and you get into 
what I consider defense indepth. We don't suddenly think that 
just because we have whatever standard of levee, that we are 
done. We need to then be able to limit that flood. The levee 
still might breach. We want to make sure it doesn't. And you 
need to have more of a defense indepth so that we can use 
elevated freeways, we can use other techniques to try to limit 
the damage afterwards.
    So we come in. The country establishes the standard for the 
depth protection, although I don't think in any case, even in 
earthquakes in L.A., that there is a 100-percent guarantee that 
any standard is perfect. So we have to be prepared with those 
additional lines of defense.
    Mr. McNerney. Mr. Baldwin, again, how would you feel the 
completion of the Lower San Joaquin feasibility study would 
help with our preparedness?
    Mr. Baldwin. I think it is very important because, although 
in some sections of that river, the lower part is in pretty 
good shape, other parts we haven't got a fighting chance. So 
from an emergency management point of view, I consider it the 
policymaker's duty to set the standard and get the levees in 
place and give us a fighting chance to protect the people that 
are behind them, and the infrastructure and the property. Then 
give us a good flood fight response, and we will take care of 
the rest, and I think we will not have perfection.
    Like I said, we will not lose any bridges when L.A. has an 
earthquake, but we will limit it to a level of damage that I 
think is sustainable over a long period of time. That is what 
we look for in our disaster response and our protective 
equipment, is it sustainable over a long period of time, not 
perfection.
    Mr. McNerney. I guess I have another minute or so. I will 
use it. Thank you.
    Mr. Simon, I was kind of intrigued on one of your points, 
that I think, as I understood it, you felt, or the commission 
feels that it is the commission's jurisdiction to have 
jurisdiction over the communications for natural disaster in 
the levees. Did I understand you correctly?
    Mr. Simon. Specifically backup power. As we are moving into 
a more IP-enabled communication infrastructure, and this gets 
into the issue of information versus voice, there are concerns 
as to whether or not there is jurisdiction over equipment that 
attaches to regulated assets. It is my position that it is, 
quite frankly.
    But I think a larger issue--the backup power decision, AB 
2393, gave clear education guidelines to educate consumers on 
what are the limitations of having technology that is not 
connected to copper that provides warm-line services.
    Going further, in listening to my distinguished panelists 
here, I do believe that we need to address safety, evacuation, 
saving lives, in an IP-enabled communication system. The 
technologies are changing rapidly, and I have concerns as to 
how in touch are we, particularly the various 
telecommunications or Internet service providers, how in touch 
are we with how consumers receive their information, how 
effective are we in the interoperability between the agencies 
that are here, as well as first responders.
    This is changing rapidly, and because of the need to have a 
robust market and to minimize regulation of broadband and the 
Internet because of the importance that it brings to the 
economy, health care, so many other areas, I do have concerns 
about whether we have sufficient oversight to ensure that we 
can evacuate and save lives in the case of disasters.
    Mr. McNerney. Mr. Murphy, would you like to comment on the 
jurisdiction of interoperability in the case of natural 
disaster? You have 1 minute.
    Mr. Murphy. The most important part, I believe, of 
interoperability, and I think Mr. Baldwin would agree, is the 
actual ability to communicate, period. What Mr. Simon was 
referring to was enacted a few years ago, which was really 
telling the public, hey, these are some of the limitations of 
your BlackBerry and your iPhone, and a lot of it has to do with 
backup power after a disaster in relation to those cell sites 
that we use, limited resources, limited time, limited ability.
    When it comes to interoperable communications, it is the 
role of the primary responding jurisdiction to be able to 
communicate with other jurisdictions around them where they may 
need to draw resources from. Particularly in California, we use 
a system of systems approach, interoperable communications. But 
number-one priority is communicate with those you are going to 
need to help you respond.
    Mr. McNerney. Thank you, Mr. Murphy.
    Mr. Denham. Mr. Shuster?
    Mr. Shuster. Thank you, Mr. Chairman, and I thank all of 
our witnesses for being here today. I appreciate you taking 
your time to do this today. It is really important for us to be 
able to, myself, learn what we can do in Washington to make 
your jobs easier out here when you are fighting these floods 
and these fires and earthquakes, whatever the problem is.
    Mr. Baldwin, I especially appreciate you being here, coming 
out of retirement to be back with us. But you bring really two 
things that I really appreciate. One is a real grassroots, up 
close and personal dealing with a catastrophe and dealing with 
the Federal Government and what we do, in many cases, to make 
your life more difficult. The second thing is, you being in 
retirement, it gives you the freedom to be able to call it like 
you see it. I know that people, when they retire from public 
service, they get out there and they are able to say things 
that otherwise they sometimes wouldn't. So I appreciate that.
    You brought up two points that I would like to ask Mr. 
Fenton about, but first the plans. I know that you locally here 
in the Delta have worked with the State to--you have a task 
force, but you don't have the plan in place. Mr. Fenton, how 
important is that plan? Because we are talking about having a 
plan in place so that money flows out to these States and these 
local governments to be able to respond.
    So can you talk a little bit about the importance of the 
plan and what we can do to help?
    Mr. Fenton. Sure. I think that plans are important to have 
in place, and I think California--just from being here for a 
long time and working with them through floods--they have great 
systems in place. Their State Emergency Management System, 
their ability to share resources and those kinds of things, are 
in place and shared and utilized throughout the area. You see 
that during wildfires, and they are probably better than just 
about any other State in moving resources around the State. 
They have a great communication system.
    So then what we start to look at is do we have specific 
plans that address specific threats, and I think that is one of 
the areas where it is reassuring to hear there is more work 
being done so that we know exactly how we are specifically 
going to evacuate a community, what roads will be operable, 
what roads will not, and what specific resources or assets we 
need to affect that. And what that allows us to do is look at 
where those capabilities are prior to an event so we know how 
to use them during an event.
    Planning is much bigger than just the response part or the 
systems part. It goes across recovery, prevention, protection, 
and mitigation. It includes looking at plans as far as what we 
can mitigate prior to an event, and I know the State of 
California does a good job of this. We have heard discussion 
here today about infrastructure and those things, to include 
exercising, to build capacity.
    So we need to continue to make efforts in those areas to be 
able to respond. Going back to Congressman Denham's first 
question, are we prepared to respond to an earthquake, it takes 
the whole community to be able to respond. It is like a sports 
team. One person could be doing good, but if the other players 
on the team aren't working together and it is not coming 
together, we are not going to be effective.
    Our plans help synchronize and integrate our collective 
resources and are critical to the success of our ability to 
respond to an event like this.
    Mr. Shuster. Don't we have the authority at FEMA to approve 
the prepositioning of assets they need? Because in a flood, a 
flood typically, we know a flood is potentially coming. So you 
can tell the State or a locale to get your assets in place.
    Mr. Fenton. You are correct, sir. The authority that you 
provided to us through the Post-Katrina Emergency Management 
Reform Act and the Homeland Security Act gives us a lot of that 
authority prior to events to go ahead and preposition 
resources. We do have resources prepositioned in California. We 
have a warehouse in the barrio, and we have the ability to task 
other Federal agencies to start prepositioning resources in 
anticipation of an event.
    In California, I think their system does much the same as 
far as moving resources prior to an event to be prepared. In 
terms of prepositioning, the flood or the hurricane in the 
southeast is a lot easier than the earthquake. In California, I 
always say it is earthquake season. But for no-notice events, 
it is a little bit more difficult to preposition. The key then 
is to have plans in place and understand where resources and 
capabilities are ahead of time, because a no-notice event is 
more difficult to respond to.
    Last week, Administrator Fugate did a Thunderbolt exercise, 
which is a no-notice exercise for FEMA, that included FEMA 
Region IX and simulated an earthquake here to make sure we are 
ready. Doing those types of exercises with no notice really 
tests your agency's ability. Are you really ready for an 
earthquake? I know you don't want it to happen today, but if it 
happens right now, do we know what everyone is doing, and do we 
know where everyone is moving?
    Mr. Shuster. Mr. Chairman, if I could have 30 more seconds 
to ask one followup question of Mr. Fenton?
    Can FEMA use mitigation funds or preparedness funds for 
folks in the Delta region here to stockpile to fight floods? Is 
that something you can utilize?
    Mr. Fenton. There are different parts of the mitigation 
program. There is the mitigation program that comes immediately 
following disasters, and usually the State sets priorities on 
how to use those projects and how that funding can be used.
    There is also funding available for mitigation that we use 
for helping to develop evacuation routes and those kinds of 
things.
    So I would have to look into it to specifically to answer 
your question about whether we can stockpile resources ahead of 
time and pay with those mitigation funds. I can do that and 
submit it for the record, if you would like.
    Mr. Shuster. I would appreciate that. Thank you.
    We are going to have another round?
    Mr. Denham. Yes.
    Mr. Shuster. OK. Great.
    Mr. Denham. Thank you.
    Mr. Simon, I understand, as directed by the PUC, 
California's natural gas transmission operators, they developed 
and filed a comprehensive pipeline safety improvement plan last 
year. Do the plans submitted by the gas operators establish an 
effective and reliable emergency response plan, especially as 
it pertains to the Delta and some of these older pipelines with 
oil and gas?
    Mr. Simon. Yes, Chairman Denham. That has actually been 
required by a series of State and I believe actual Federal 
legislation as well, that there is adequate emergency response, 
including shutoff valves, exercises with first responders to 
ensure the ability to have state-of-the-art response.
    Specific to the Delta, that would be regional decisions. It 
would be something I would strongly recommend to the utilities, 
and I will look at both the rulemaking and the pipeline 
enhancement plans on a forward-looking basis to ensure that 
safety plans are specific to each geographical region. I have 
not been briefed specifically by our Consumer Protection and 
Safety Division, but I would be willing to wager that they 
understand the safety risk that exists in the Delta region, 
particularly in view of the levees and soil erosion and other 
things I presented.
    But I will make it a point, and I can also report back to 
the committee for the record to ensure that the pipeline safety 
enhancement plans, including testing, are specifically designed 
to deal with Delta issues, as well as the urban and rural 
areas.
    [The information follows:]

        The utility serving the Delta, PG&E, reports that it 
        has in development a flood-contingency plan for the 
        McDonald Island gas storage facility located in the 
        Delta, which will include a detailed plan for potential 
        levee failure. This plan will address specific measures 
        that will be taken for employee and equipment safety, 
        and that will provide additional operational details 
        for facility operators. This document is in draft form 
        and is not available for review at this time.

        PG&E's Company Emergency Plan does not specifically 
        address levee breaks, but speaks to the functional 
        activities PG&E will undertake in any natural or 
        manmade disaster throughout the service territory, 
        including levee breaks or other issues affecting the 
        Sacramento Delta. This plan, and the related emergency 
        response plans (gas, electric, etc.) would be 
        operational in the event of a levee break or other 
        emergency in the Sacramento Delta.

        PG&E reports that gas facilities situated in the 
        Sacramento Delta are designed to be operated even under 
        flood conditions. Information about this design basis 
        is not included in emergency plans, but can be found in 
        the engineering documents associated with their 
        construction. Similarly the footings of electric 
        transmission towers in the Delta are designed in such a 
        way as to keep the towers operational in flood 
        conditions.

        In addition, as part of PG&E's emergency exercise 
        program, levee breaks are occasionally introduced in 
        scenarios to test PG&E's ability to respond. The 2008 
        Company Exercise, which was a Hayward Fault earthquake 
        scenario, included notional breaches to 15 levees, 
        resulting in simulated flooding in the Delta and 
        operational issues at McDonald Island. Exercise 
        participants addressed these notional problems 
        successfully. Materials from this exercise were not 
        published, and the brief exercise summary that was 
        submitted to the CPUC did not include specifics about 
        levees, which were a minor part of the exercise.

    Mr. Denham. Thank you. And as far as the statewide pipeline 
safety plan, when do you expect the PUC to issue a final 
decision?
    Mr. Simon. Mr. Chairman, with all due respect, I hate to 
give dates when due process is involved, but we are expecting, 
I believe, a decision on the investigation and the rulemaking 
at least--well, there are two aspects of it. There is the PG&E 
explosion and the proceedings that involve that, both the 
investigation and the rulemaking, and that is assigned to my 
fellow commissioner Mike Florio. I do expect decisions on that 
going forward within 2012.
    The actual pipeline enhancement and safety, which is 
approximately $17 billion between SoCal Gas and PG&E over a 10-
year period, I will expect as those decisions are published 
that there will be a lot of comments and other actions taken by 
consumer advocates, first responders, even some of the agencies 
that are represented here today.
    So it would be very difficult for me to give a final date, 
but I would expect in 2013.
    Mr. Denham. Thank you.
    Mr. Coate, with East Bay MUD, obviously water is a huge 
issue, supplying water to the entire Bay area. In 2004 when the 
Jones Tract levee broke, that wasn't weather, it wasn't an 
earthquake, it was just the failure of a levee. What would 
happen if we had an earthquake? What would be not only the 
damage to the water supply but the Bay area receiving the 
majority, if not all of its water in this area, what would be 
the impacts of East Bay MUD?
    Mr. Coate. Mr. Chairman, you are speaking of an earthquake 
in the Delta?
    Mr. Denham. In the Delta, yes.
    Mr. Coate. There is a high probability if there is an 
earthquake in the Delta that we would revisit inundation like 
we saw at Jones Tract, and also potential to actually 
compromise the aqueducts themselves. East Bay MUD has been 
working to anticipate such an event, and I described in my oral 
testimony a number of the things that we put into place.
    But essentially we would embark, once the aqueducts were 
accessible and the tract dried, in a repair effort, and we have 
allowed ourselves 6 months of supply which we store west of the 
Delta in order to be able to continue to provide water to our 
customers. That is under severe rationing conditions. So I can 
speak briefly on the economic impacts, not only the cost 
associated with repairing the aqueducts, which would be to be 
determined but relatively small when compared with the economic 
costs to the Bay area.
    In recent years we have done some long-term water supply 
planning in the context of trying to understand the value of 
supplies west of the Delta, such as recycling supplies that we 
have actually received some funding through the Water Resource 
Development Act to construct. In the context of looking at the 
value of those supplies, we have done an economic study, and if 
we had to ration, severe rationing for a year, it would have an 
economic impact of about $1 billion, actually more than $1 
billion, to the East Bay economy.
    So you are looking at compromising water supply, but you 
are also looking at compromising the way of life in the Bay 
area.
    Mr. Denham. Thank you.
    Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    My next two questions are going to be addressed to Mr. 
Coate. Do you believe that investing in levee protection would 
benefit both water flows and mitigate flood protection?
    Mr. Coate. Yes. We, in fact, have been working with five 
other water agencies, several of which are very focused on the 
Bay Delta Conservation Plan. Those include East Bay MUD, San 
Francisco Public Utilities Commission, Contra Costa Water 
District, Santa Clara Valley Water District, Alameda County, 
and the Metropolitan Water District, and together we have 
identified that it is very important to protect a number of 
levees. We have submitted a letter to the State, to John Laird, 
and helped him appreciate where we think resources should be 
expended to protect levees, and in so doing protecting the 
water supply that flows through the Delta to the export pumps, 
but also the water supply that flows to the East Bay and San 
Francisco South Bay communities.
    Mr. McNerney. Thank you. You mentioned the need for clearly 
defined roles within a disaster response plan. Can you 
elaborate where we are with the current system? Is it adequate? 
Are there well-defined roles, or is there still a little bit of 
ambiguity that would cause problems in a disaster?
    Mr. Coate. Well, there has been a lot of improvement over 
the years and a lot of improvement since 2004. There has been 
discussion here about the recent report that was prepared which 
included a number of recommendations going forward. Those 
recommendations are consistent with what we would like to see 
happen, clearer coordination and responsibility. But as Mr. 
Baldwin explained, it would be good to see some clear 
commitments to providing authorization for financial resources 
that would allow an immediate response when a levee failure is 
being observed so that we could control the damage and protect 
the infrastructure.
    Mr. McNerney. Thank you. That is a good answer.
    Mr. Murphy, what do you think the biggest obstacles are in 
implementing the task force's recommendations?
    Mr. Murphy. I think the biggest obstacle is exactly what 
Mr. Baldwin said and what has already been brought up. The 
biggest obstacle to some of this is just pure financial. You 
have the maintenance side of the levees, and this goes all the 
way from very small reclamation districts all the way through 
East Bay municipal district, one of the biggest utility 
providers in the State. You have a clear need to maintain all 
these levees at a standard--I also shy away from the 100-year 
scenario, but you have to maintain whatever level you set, and 
that is just a reality. It is a very difficult thing to do in 
this environment. That is the biggest obstacle.
    On the response side, the actual first responders on the 
levee after something has happened, our biggest obstacle is 
probably exactly what Mr. Baldwin said, and we are working 
through it, how to figure out the best way to make sure that 
everybody is on the same page, that you are going to get 
reimbursed for what you are spending in that initial hour after 
the event happens, and I think we are significantly further 
ahead 8 years later after Jones Tract than we were in 2004.
    That doesn't mean it is going to be perfect, but I think we 
all, especially in the State, understand this is what we are 
going to do, we are going to make these movements, and then we 
are all going to stand on the same platform and say we have 
done it all in good faith, and now we should be reimbursed for 
that as well.
    Mr. McNerney. Well, the first part of your answer, lack of 
funds, is interesting because in Mr. Baldwin's testimony he 
said, well, there are sufficient funds, they are just not 
coordinated in a way that would benefit emergency preparedness. 
Could you address that, Mr. Baldwin?
    Mr. Baldwin. Well, I am just saying that it is a fact. I 
mean, the Department of Water Resources has bond funds that 
they are spending internally, and that is good. They just 
announced the imminent release of grants to local governments 
for flood preparedness projects. The last figure I heard, and I 
am not an authority, is $14 million. The Corps of Engineers has 
ongoing funds that they are spending on a Delta emergency 
response plan. The Central Valley Flood Protection Plan program 
has announced funds going down to the regional basis that could 
be used for flood preparedness.
    We have this historic opportunity because of the bonds. 
Thanks to the people of California in 2006, there are some 
funds. And thanks to the Federal Government, the Corps money I 
believe is coming through CalFed, or whatever. There is quite a 
bit of money.
    We haven't had the two components come together. Now we 
have the strategy. That was released by the Governor this year. 
Now we have the funds. All I am saying is I think some kind of 
high-level coordination should say, OK, these funds will cover 
this aspect, these funds will cover this aspect. We will just 
ensure that 3 years down the road these different funding 
streams will make sure that the strategy was addressed and that 
we got it done, because in a few years those bond funds are 
going to be gone and then we will be back to where--we will 
just stop right at, well, where are the funds?
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Denham. Mr. Shuster?
    Mr. Shuster. Thank you. Back to another topic to deal with 
funding that Mr. Baldwin brought up, directed to Mr. Fenton. 
Mr. Baldwin mentioned that, in these different jurisdictions, 
the county may be able to help one of these local reclamation 
districts, but they can't do it because they are concerned they 
are not going to get paid for it.
    Is there a mechanism in place, or is there a process, or do 
you have the authority to look at a situation and use common 
sense to say, hey, they are going to fix this, we need to do 
it, let's move forward with it and make sure they get their 
money?
    Mr. Fenton. Sure. Well, there have been a couple of changes 
since the 2004 Jones Tract. One is that we signed a Delta 
Memorandum of Understanding for the public assistance program 
that clarifies some eligibility that existed in previous 
documents, as far as requirements for maintenance of the 
levees, and also how we would reimburse them.
    But specifically to the question of how do you do things 
immediately, essentially our program allows us to reimburse the 
eligible applicant, the person who owns or is legally 
responsible for that infrastructure. Typically what happens is, 
through MOUs or agreements, other entities come over and 
support them. As long as those agreements are in place, it 
allows us to make sure that the reimbursement mechanism can 
follow and we are able to support it.
    Essentially, what we are not going to do is penalize 
someone for responding. We just want to make sure that we are 
following the law and are able to reimburse those who are the 
actual owners of the facility, the eligible applicant. We 
understand that in some cases, through mutual aid agreements, 
that other resources come over and support, and we have the 
means to reimburse when that happens.
    We have the means to reimburse something within minutes of 
a declared disaster. So it is not that they should be waiting--
money shouldn't be a factor. The decisionmaking a lot of times, 
even on fires, is able to provide immediate funding right 
upfront.
    Mr. Shuster. So if one of these districts has an MOU with 
the county, then----
    Mr. Fenton. Yes, there are systems in place in the State, 
and Brendan can probably speak to it better than I can. But 
within the State of California, there is the State Emergency 
Management System, the SEMSYS, in which they move resources 
around. So as long as a request goes through that system and it 
falls in that mutual aid system, then we reimburse upon that. 
For circumstances where we would not do it, I would have to 
have a specific issue and look back and see why we did not 
reimburse.
    Mr. Shuster. Mr. Murphy, it looks like you want to say 
something.
    Mr. Murphy. Absolutely. Where we went between 2004 and 
2010, when we signed our Memorandum of Agreement with FEMA, was 
exactly on that. In 2004, there was a little bit more--even 
though entities were directed inside of our system to do 
specific things in relation to the response, we had that kind 
of initial problem of who--the reclamation district owns it; 
now you have other people doing the response work because the 
reclamation district couldn't do it itself. How do we go from 
there?
    What our Memorandum of Agreement says is that if we are 
inside the system, and the State, as well as our local 
agencies, have requested the help, and we have sent the 
resources, that FEMA recognizes that it is all part of the 
master mutual aid agreement which was signed in 1953 in the 
State, thereby allowing that work to occur.
    Mr. Shuster. And one more question that has to do with 
WRDA. Mr. Coate, you brought up Congress doing a WRDA bill, 
which we need to do that. We were thinking we were going to get 
it done, at least attempt this year. I doubt it. We don't have 
enough time, but it is something we need to go after next year.
    So you mentioned about WRDA. Did you have very specific 
ideas, or are they sort of general, that you laid out there? I 
looked through your testimony. I couldn't see that you had any 
real specific ones.
    Mr. Coate. Thank you for the opportunity to speak about 
that. Currently, what we see in--specifically, WRDA has 
provided funding for primarily recycling projects that 
increases our reliability west of the Delta. We have a lot more 
opportunities in that arena we would love to explore.
    What we have seen in WRDA is that there are resources for 
flood control, but they are focused primarily on long-term 
planning, and it would be good if WRDA could acknowledge that 
there is plenty of levee repair work that could be done on the 
immediate, and if funding could be made for improvements today, 
that would be valuable. It would also be helpful if WRDA looked 
and acknowledged that, very broadly, reliability, 
interconnection between water systems, which are expensive to 
construct, help mitigate the impact if there is an earthquake, 
as I described earlier.
    So those sorts of program authorizations would be very 
helpful for the water community.
    Mr. Shuster. If you have any other ideas, if you could put 
them in writing to us because, as I said, next year it will be 
something I am sure we are going to try to tackle, and hearing 
from folks in the community, sending them through Mr. Denham's 
office or however you could get them, would be very helpful to 
us as we move forward.
    Mr. Coate. Thank you for the opportunity.
    Mr. Shuster. I yield back.
    Mr. Denham. Thank you. This will be our final round of 
questioning, but this committee, as well as other committee 
members that aren't here today, will be offering questions to 
all of our witnesses, and we would ask you to respond to those 
in an expeditious manner.
    In the final round I have quite a few things I want to 
cover in just wrapping up.
    Mr. Murphy, this is a basic question I would like to ask 
each of you. Who is responsible for paying for the maintenance 
and upkeep of these levees, in your opinion?
    Mr. Murphy. Each and every reclamation district that owns 
them. That is the primary. Maintenance and upkeep, that is what 
they are doing. They are there to control that levee and move 
water through there.
    Mr. Denham. Mr. Baldwin, maintenance and upkeep?
    Mr. Baldwin. Right. Basically, whoever--I mean, if the 
Corps or a private entity comes in and builds a levee, then 
there is some agreement. If it is a Corps levee, who is going 
to maintain it? In some cases it is the State, for the most 
part. In the Delta, it is going to be reclamation districts.
    I would only point out one thing. They get the money to do 
the maintenance. They get the money to do the emergency 
response from property assessments, so the farmers out there 
and the property owners. But if there is a highway going 
through there and that district is protecting it, they get no 
additional money. I compliment East Bay MUD that actually go 
through there and assist with cash flow. This is the problem. 
That is why there is a lot of time when districts are 
protecting a lot of very valuable infrastructure but don't have 
that cash flow to maybe do the maintenance properly or to do as 
well as they would like, or to do the emergency response, and 
the other agencies have to come in, and we get into some of 
these complications.
    So I think it is the old way. A hundred years ago, that is 
it. You built a levee, you are protecting your farm, you ought 
to pay for the maintenance, you know? But now we have laid on 
highways and aqueducts and all sorts of infrastructure. We 
transport water and everything else, and we never really 
updated the way that that reclamation district system works, 
where they can maybe get some cash flow from some of those 
other beneficiaries to maintain the levees, and also for 
emergency response.
    Mr. Denham. And as well on upgrades, especially in areas 
where you have different jurisdictions or different types of 
infrastructure, in your opinion, where should the money for 
upgrades come from?
    Mr. Baldwin. That I think is a shared State-Federal--I 
mean, the Federal Government more or less sets, to a certain 
extent, the standards, because of the flood insurance program, 
of what kind of levee you need to have, and I think that is the 
debate that is going on, what should be the standards for the 
levees. Once that decision is made, then I think it is shared. 
I mean, it is public good for the Delta, so the public, through 
the Federal and State governments, should bring them up to 
standard. The reclamation districts, then, should be able to 
have enough cash flow to maintain them properly and at the same 
time respond in an emergency, and we should fix that system to 
where they will have sufficient funds from all the 
beneficiaries to do that after maybe the Federal or State, a 
Corps project, something comes in and actually brings the levee 
up to the standard that we decide is adequate for that area.
    Mr. Denham. Thank you, Mr. Baldwin.
    Mr. Simon, upgrades?
    Mr. Simon. Yes, Mr. Chairman. For investor-owned utilities, 
and it may actually apply to our public utilities as well, it 
is somewhat of a mixed bag. I think to the extent that 
reinforcement of properties that the utilities have been 
granted through eminent domain or reverse condemnation, and for 
purposes of that infrastructure, that pipeline infrastructure, 
they will typically seek recovery from ratepayers by way of an 
application or some type of tariff filing. Whether or not the 
ratepayers pay the entire amount or it is apportioned between 
ratepayers and shareholders, then that would be our 
distinction, for example, in East Bay MUD, would be determined 
by way of decision.
    Now, I would say that if a utility had infrastructure that 
sat or was laid in a reclamation district or a jurisdiction 
where the resources were available by way of assessment, 
Federal, State or local funding, I would think that they would 
seek those resources for purposes of protecting the 
infrastructure to reduce the cost to their ratepayers and 
shareholders.
    Mr. Denham. Thank you.
    Mr. Coate.
    Mr. Coate. Well, East Bay MUD has taken the position for 
many years that we should make investments in the levees. So we 
have spent over $15 million in levee improvements to protect 
our aqueducts, but also to protect all of the other 
infrastructure adjacent to it.
    Reclamation districts, as was described, are cash limited. 
So by us making the financial contributions, we have been in a 
position to support the reclamation districts, obtaining money 
from the State. The State typically doesn't pay 100 percent. 
They would provide or expect to cost-share. So more recently, 
working with our local reclamation districts and the Delta 
Stewardship Council, East Bay MUD made a contribution of on the 
order of $6 million, and in so doing leveraged about $33 
million worth of funds. The majority of those funds have been 
put in the ground, making significant levee improvements, 
probably some of the most significant improvements that have 
been done in recent times.
    Mr. Denham. Thank you.
    And finally, Mr. Fenton, from a FEMA perspective?
    Mr. Fenton. With regard to maintenance, sir, basically our 
programs fund identification of risk, responding, recovering 
and mitigating from disasters, but it does not cover costs for 
maintenance. That is the responsibility of the owner or the 
sub-grantee in our case.
    With regard to upgrades, we do have some ability within our 
regulations, within the PA program, to do improved projects and 
look at some of those kinds of things. Also, there are 
mitigation funds. But, generally, we don't pay for upgrades, 
and that is specific to FEMA, of course. Other Federal 
agencies, the Army Corps of Engineers, NRCS, have different 
programs that may be applicable here.
    Mr. Denham. Thank you.
    And finally, I have one final question. Mr. Simon, you 
highlight in your testimony that ensuring the communications 
and telephone service work during emergencies. As you may know, 
the Integrated Public Alert and Warning System Modernization 
Act, it was included as part of my bill, H.R. 2903, the FEMA 
Reauthorization Act. The bill authorizes IPAWS and establishes 
a framework to ensure key stakeholders are at the table as FEMA 
continues to develop its system.
    From your experience, how important is it to ensure 
information can get out to the public during a disaster, 
especially one that could shut down many different roads and 
could be flooding a huge area?
    Mr. Simon. Mr. Chairman, I think it is critical. One of our 
most fire-prone areas actually is in southern California--that 
is the San Diego region--due to the Santa Ana winds, as you are 
well aware. Between 2003 and 2007, there were 13 fatalities 
that occurred in that region. I held workshops there in the 
Riverside-San Bernardino area, which was also affected, and I 
heard accounts from first responders where they had to use 
their personal cell phones because the system that either the 
police or fire were utilizing was not operative and/or 
interoperative.
    There was a case in the Inland Empire where reverse 
messaging was coming from a vendor in Florida. Because 
residents did not recognize the area code, they thought it was 
some type of marketing call and did not answer the messaging 
that was being sent for purposes of evacuation.
    So I think it is critical that our emergency response 
capabilities, with residents in particular, is commensurate 
with the technology choices that are being made by our citizens 
for purposes of communications, and that we have the type of 
messaging, reverse 911, enhanced 911 capacities that can reach 
our residents in a time of crisis and give them the proper 
instructions to save lives and property.
    Mr. Denham. Thank you. That was the answer I was looking 
for. As Mr. Shuster said, we have the FEMA reauthorization bill 
that has already come out of committee. IPAWS is part of that 
communication piece of it, and I am looking forward to pushing 
that as we go back in September and trying to get that through 
both bodies, both Houses, before we adjourn in the 112th 
Congress.
    Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    One of the interesting things that has come out, in my 
opinion, is the availability of funding, and there does appear 
to be money available.
    Mr. Fenton, does the FEMA have sufficient jurisdiction to 
be able to help direct funds where they are needed from the 
appropriate sources for levee protection?
    Mr. Fenton. I think the authority for the Delta area is a 
combination of different Federal agencies that have the 
authority and resources to do that. Some of it exists for the 
levees within the Delta, some of them are Federal levees. The 
Public Law program is the Army Corps of Engineers. Some of them 
fall underneath NRCS's program. I know Department of Interior 
has been working on plans with regard to some of the issues 
they know of with regard to----
    Mr. McNerney. Excuse me, but that sounds like part of the 
problem. We need--and I think it is good testimony--an agency 
that can direct the funds where they are needed. If we have all 
these different agencies that have jurisdiction, then it is all 
going to be piecemeal. We are not going to get the real work 
that we need to get done.
    Mr. Fenton. I understand. It is such a complex issue. When 
you start looking at the expertise of the different agencies, 
FEMA does not have thousands of engineers like the Army Corps 
of Engineers does, and it is not a skill set that we would be 
good at doing without having their experience and capability 
and hundreds of years of doing flood fights and levee work 
throughout the country on water conveyance-type structures.
    For a problem like this, I think it is good that a task 
force is coming together at the State and local level to 
address it. Federal agencies have to be included in that, 
because there are different capabilities through authorities at 
the Federal level that need to be integrated in that. I think 
integration and some mechanism to ensure consistency and 
collaboration is probably better than trying to move with just 
one agency, just because of what we do with our specific 
missions throughout the rest of the United States.
    Mr. McNerney. Well, I don't have the Corps of Engineers 
here in front of me. So what I would like to ask is that either 
you or Mr. Murphy give me some sort of assurance that money is 
going to be there for levee protection and enhancement no 
matter what happens with the BDCP, and I don't have that 
feeling, and it is a concern to me and to the district, to the 
region.
    Mr. Murphy. Congressman, at the State level, I can tell you 
right now, as Mr. Baldwin mentioned, that proposition money 
that is available from 2006, we have coordinated with the 
Department of Water Resources, who controls the emergency 
aspects, as well as the upkeep of all of their own levee 
system, and the emergency planning, especially the long-term 
emergency planning, has been a priority for them and is a 
priority for them.
    But I think, honestly, your question is a good one, because 
at the Federal level, there are multiple agencies that have a 
piece of this project. It is not an easily answered question.
    So at a State level, I can assure you, we actually sit with 
the Department of Water Resources and review the applications 
that come in, and you are going to have the highest priority, 
the best value, the best bang for the buck as far as from the 
reclamation districts mostly in that case.
    At the Federal level, though, that is a coordination aspect 
because there are so many entities involved in the process 
where we probably do need some work.
    Mr. McNerney. Who do we go to if we are finding the levee 
money is drying up because of being directed towards the BDCP?
    Mr. Murphy. You know, I think that Ron has probably had 
more headaches with this than even I have. But there are--
literally, it is not a one-stop shop. It is the people who are 
in this game have to go to each and every one. You have to 
approach the Army Corps of Engineers. You have to approach the 
Department of Interior. That is just the process that we have 
had to take at a State and local level over the years.
    Mr. Baldwin. Well, I think the point I was making and the 
money I am speaking of--I mean, there are kind of two issues. 
It is the money for the construction of the levees, and I don't 
know if it is really the maintenance. I would say the 
construction and the improvement of the levees, a lot of that 
is coming out of the bond funds through other programs, as well 
as any authorizations that Congress may have for the Corps to 
assist with an upgrade of a levee.
    I am really talking about the flood fight, the emergency 
response. I am just saying that there are quite a bit of funds 
currently coming down. We didn't have the strategy a year ago. 
We do have it now, and it seems to me good public policy that 
some document be issued to say, OK, there are six different 
things coming down, and I have good faith in the agencies. So 
to say, OK, Corps, what are you doing? How does that fit into 
the strategy? Here is what they are going to address, just to 
make sure we don't duplicate efforts, and at the same time make 
sure that the entire strategy is implemented.
    The second thing is just to have a mechanism to make sure 
about quality control, that whatever we got done got done to 
the standards that we all agree it should have been.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Denham. Thank you.
    Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    A question to Mr. Murphy and to Mr. Simon. Mr. Simon, you 
mentioned that the CPUC, after the San Bruno pipeline 
explosion, put some things in place. But can you sort of talk a 
little bit about what have the natural gas pipeline operators, 
what have they done themselves? Are they complying? Is it a 
smooth process going forward, such as PG&E, to improve their 
gas emergency response processes?
    Mr. Simon. They are in that process now, actually. The 
legislation was approved in the last session, and from all 
indications I believe San Bruno was the unfortunate wake-up 
call, and I believe all gas operators, if they didn't 
understand before, understand now the importance of having 
protocol in place to deal with a disaster when it happens.
    Gas transmission infrastructure is a necessity for our 
society. It has to run through densely populated areas. So my 
response to that would be that I believe, again with our 
Consumer Protection and Safety Division and the pipeline 
operators throughout the State, that those cooperative efforts 
are moving along in an effective fashion.
    Mr. Shuster. Mr. Murphy?
    Mr. Murphy. I think the coordination with local first 
responders, as well as the State, has absolutely been 
heightened from it, without a doubt, and not just PG&E but 
across the State. I am not going to discount that a lot of that 
has been the public message you get when a horrific event like 
that happens, and other private vendors look at that and say we 
don't want that to be us.
    But that has been a great benefit at this point as far as 
from that local first responder and knowing what is in your 
backyard. That has been one of the biggest issues, is where are 
the pipelines and the disclosure of that. CPUC has been a huge 
help in having that.
    We have taken many steps. I think the reality, though, and 
where the CPUC is working forward, is that the long-term 
replacement of much older pipelines and really what has to 
happen there inside California. I think where we are at, 
though, is significantly light-years ahead of where we were a 
few years ago, prior to the San Bruno incident.
    Mr. Shuster. My second question was about the emergency 
responders, and you did say they are coordinating with and 
building relationships, so it is much better.
    Mr. Murphy. Oh, like I said, they--and I am somewhat biased 
because PG&E did hire one of our former employees on the gas 
side. But the difference is light-years, and what it is, 
especially those for-profit utility providers are fully engaged 
in not wanting to have anything like this happen again.
    I am sure, as a for-profit entity, there are some 
limitations. But at least on that first responder and State and 
local, here is where we are, here is what we are doing, and 
here are the potential issues we could have in this area.
    Mr. Shuster. Thank you very much.
    Thank all of you for being here today.
    Mr. Chairman, I yield back.
    Mr. Denham. Thank you. I thank each of you for your 
testimony. Your comments have been very helpful in such a short 
hearing. We will be following up as an entire committee with 
further questions.
    If there are no further questions from here, I would ask 
unanimous consent that the record of today's hearing remain 
open until such time as our witnesses have provided answers to 
all of our questions that have been submitted to them in 
writing, and unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today, and if no other Members have anything to add, 
the subcommittee stands adjourned.
    [Whereupon, at 11:21 a.m., the subcommittee was adjourned.]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
